                                                         AUDIT




U.S. FISH AND WILDLIFE SERVICE WILDLIFE AND
SPORT FISH RESTORATION PROGRAM GRANTS
Awarded to the Government of the Virgin Islands,
Department of Planning and Natural Resources,
From October 1, 2008, Through September 30, 2010




Report No.: R-GR-FWS-0006-2011                     November 2011
                                                                               November 3, 2011


                                        AUDIT REPORT

Memorandum

To:       Director
          U.S. Fish and Wildlife Service

From:     Suzanna I. Park
          Director of External Audits

Subject: Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
         Grants Awarded to the Government of the Virgin Islands, Department of Planning
         and Natural Resources, From October 1, 2008, Through September 30, 2010
         (No. R-GR-FWS-0006-2011)

        This report presents the results of our audit of costs claimed by the Government of the
Virgin Islands, Department of Planning and Natural Resources (the Department), under grants
awarded by the U.S. Fish and Wildlife Service (FWS). FWS provided the grants to the Virgin
Islands under the Wildlife and Sport Fish Restoration Program (the Program). The audit included
claims totaling approximately $3.1 million on 26 grants that were open during fiscal years (FYs)
ended September 30, 2009 and September 30, 2010 (see Appendix 1). The audit also covered the
Department’s compliance with applicable laws, regulations, and FWS guidelines.

       We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. We questioned costs totaling $65,618, however, because the
Department (1) did not have adequate documentation to support several purchases and (2) paid
for two items outside of the grant period. We also determined that the Virgin Islands had not
passed legislation assenting to the Sport Fish Restoration Act. Furthermore, the Department did
not consistently expend its own funds on goods and services before requesting Federal
reimbursement and did not adequately manage equipment purchased with Program funds.

        We provided a draft report to FWS for a response. We summarized the Department and
FWS Region 4 responses, as well as our comments, on the responses after the recommendations.
We list the status of the recommendations in Appendix 3.

        Please respond in writing to the findings and recommendations included in this report by
February 1, 2012. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation. Please address
your response to:
                              Director of External Audits
                              U.S. Department of the Interior
                              Office of Inspector General
                              12030 Sunrise Valley Drive, Suite 230
                              Reston, VA 20191

If you have any questions regarding this report, please contact the audit team leader, Ms. Lori
Howard, or me at 703–487–5345.

cc: Regional Director, Region 4, U.S. Fish and Wildlife Service
Table of Contents
Introduction ............................................................................................................. 1
   Background ......................................................................................................... 1
   Objectives ............................................................................................................ 1
   Scope ................................................................................................................... 1
   Methodology ....................................................................................................... 1
   Prior Audit Coverage .......................................................................................... 2
Results of Audit ...................................................................................................... 4
   Audit Summary ................................................................................................... 4
   Findings and Recommendations ......................................................................... 4
Appendix 1 ............................................................................................................ 11
Appendix 2 ............................................................................................................ 12
Appendix 3 ............................................................................................................ 13
Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport
Fish Restoration Act (the Acts) 1 established the Wildlife and Sport Fish
Restoration Program. Under the Program, FWS provides grants to States 2 to
restore, conserve, manage, and enhance their sport fish and wildlife resources.
The Acts and Federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs
incurred under the grants. For certain Government entities, including the Virgin
Islands, the Acts allow for full reimbursement of eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used
only for the administration of the State’s fish and game agency. Finally, Federal
regulations and FWS guidance require States to account for any income they earn
using grant funds.

Objectives
Our audit objectives were to determine if the Department:

       •    Claimed the costs incurred under the Program grants in accordance with
            the Acts and related regulations, FWS guidelines, and the grant
            agreements.
       •    Used hunting license revenues solely for fish and wildlife program
            activities.
       •    Reported and used program income in accordance with Federal
            regulations.

Scope
Audit work included claims totaling approximately $3.1 million on the 26 grants
that were open during FYs ended September 30, 2009 and September 30, 2010
(see Appendix 1). We report only on those conditions that existed during this
audit period. We performed our audit at Department headquarters in St. Thomas,
VI. We also visited two Division of Fish and Wildlife offices and five boat access
facilities (see Appendix 2). We performed this audit to supplement, not replace,
the audits required by the Single Audit Act Amendments of 1996 and by Office of
Management and Budget Circular A-133.

Methodology
We conducted our performance audit in accordance with the “Government
Auditing Standards” issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.
2
  The Acts define the term “State” to include the District of Columbia, the Commonwealth of Puerto Rico,
the Virgin Islands, Guam, American Samoa, and the Commonwealth of the Northern Mariana Islands.

                                                                                                           1
conclusions based on our audit objectives. We tested records and conducted
auditing procedures as necessary under the circumstances. We believe that the
evidence obtained from our tests and procedures provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Our tests and procedures included:

   •   Examining the evidence that supports selected expenditures charged to the
       grants by the Department.
   •   Reviewing transactions related to purchases, direct costs, and drawdowns
       of reimbursements.
   •   Interviewing Department employees to ensure that personnel costs
       charged to the grants were supportable.
   •   Conducting site visits to inspect equipment and other property.
   •   Determining whether the Virgin Islands passed required legislation
       assenting to the provisions of the Acts.

We also identified the internal controls over transactions recorded in the labor
accounting systems and tested their operation and reliability. Based on the results
of initial assessments, we assigned a level of risk to these systems and selected a
judgmental sample of transactions recorded in these systems for testing. We did
not project the results of the tests to the total population of recorded transactions
or evaluate the economy, efficiency, or effectiveness of the Department’s
operations.

Prior Audit Coverage
On October 7, 2002, we issued “Final Advisory Report on Costs Claimed by the
U.S. Virgin Islands, Department of Planning and Natural Resources, Division of
Fish and Wildlife, Under Federal Aid Grants from the U.S. Fish and Wildlife
Service from October 1, 1996 through September 30, 1998” (No. 2003-E-0001).
We followed up on the nine recommendations in the report and found that three of
the recommendations were resolved and implemented, and six were resolved but
not implemented.

On October 18, 2007, we issued “Audit on U.S. Fish and Wildlife Service Federal
Assistance Program Grants Awarded to the Virgin Islands, Department of
Planning and Natural Resources, Division of Fish and Wildlife, From October 1,
2003, Through September 30, 2005” (No. R-GR-FWS-0006-2007). We followed
up on the eight recommendations in the report and found that two of the
recommendations were resolved and implemented, and six were resolved but not
implemented.

Our current audit scope included the areas covered in these prior audits. When we
found the same conditions still existed, we included them in the Findings and
Recommendations section of this report and repeated prior recommendations or
made new recommendations, as applicable. Documentation on the
implementation of repeat recommendations should be sent to the U.S. Department

                                                                                    2
of the Interior, Office of the Assistant Secretary for Policy, Management and
Budget.

We also reviewed the Single Audit report for the Virgin Islands for the year
ending September 30, 2008. The FWS grants were not considered a major
program for that audit. The Single Audit report for the year ending September 30,
2009, had not been issued before we completed our fieldwork.




                                                                                3
Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant
agreement provisions and requirements of the Acts, regulations, and FWS
guidance. We identified several conditions, however, that resulted in the findings
listed below, including questioned costs totaling $65,618. We discuss the findings
in more detail in the Findings and Recommendations section.

Questioned Costs. We questioned costs totaling $65,618 because the Department
(1) did not have adequate documentation to support several purchases and (2) paid
for two items outside of the grant period.

Lack of Required Assent Legislation. The Virgin Islands has not passed
legislation assenting to the Sport Fish Restoration Act, which is a prerequisite for
participation in the Sport Fish Restoration Program.

Unapproved Advance Drawdowns. The Department did not ensure that it paid
Program expenses with its own funds before requesting and receiving Federal
reimbursement.

Inadequate Equipment Management. The Department did not maintain a
complete listing of equipment purchased with Program funds and is therefore
unable to adequately manage and control these items.

Findings and Recommendations
A. Questioned Costs — $65,618

1. Unsupported Direct Cost Charges — $25,409

Federal regulations state that grantees must support claimed costs with adequate
documentation; the Department’s own policies also reflect this requirement. We
reviewed expenditures totaling $432,860 that the Department charged to its
Program grants, and found that it could not provide invoices or proof of payment
for transactions totaling $37,014. In response to the draft report, the Department
provided documentation to support $11,605 in expenditures. The remainder of
unsupported costs is identified in the table below.

                                            Unsupported Costs
                      Grant Number           (Federal Share)
                      F-16-REO-3                  $2,081
                       FW-18-6                       20,728
                       W-17-6                         2,600
                       TOTAL                      $25,409
                                                                                     4
According to the Code of Federal Regulations (CFR), in 2 CFR § 225,
Appendix A, subsections C.1.a, b, and j, to be eligible for reimbursement under
the Program, grant expenses must be reasonable, allowable, allocable, and
adequately supported. In addition, the Department’s “Standard Operating
Procedures” states that documentation for a completed procurement transaction
must include a request for purchase, requisition from the accounting system,
purchase order, vendor invoice, and proof of payment.

Because the Department did not follow its own process to ensure it maintained
sufficient supporting documentation for grant expenditures, we are questioning
$25,409 in unsupported costs.

Recommendations

We recommend that FWS:

    1. Resolve the unsupported questioned costs of $25,409.

    2. Require the Department to follow its own procedures to ensure that it
       maintains sufficient documentation for grant expenditures.


Department Response
The Department did not concur with the finding but provided documentation in
support of the $37,014 in the draft report.

FWS Response
FWS Regional officials acknowledge the finding and requested additional
information from the Department to be incorporated into a pending corrective
action plan.

OIG Comments
The Department provided additional supporting documentation in response to the
draft report. Based on our review, $11,605 of the $37,014 was supported.
Therefore, we are questioning the remainder of $25,409 as unsupported. We
revised the table to exclude those questioned costs that were deemed supported.

Based on the Department and FWS responses, additional information is needed in
the corrective action plan including:
    • The specific action(s) taken or planned to address the recommendations.
    • Targeted completion date.
    • Titles of officials responsible for implementing the actions taken or
        planned.
    • Verification that FWS headquarters officials reviewed and approved of
        actions taken or planned by the Department.



                                                                                  5
2. Out-of-Period Costs — $40,209

During our testing of direct cost charges, we found two transactions, totaling
$40,209, that were paid 5 months or more after the end of the grant period.
Specifically, the Department:

   •   Charged Grant FW-18-6, for operations and maintenance, $24,650 for
       paving services that were performed and paid 5 months after the end of the
       grant period.
   •   Charged Grant F-16-REO-2, for sport fish monitoring, enhancement, and
       restoration activities, $15,559 for supplies that were received and paid 7
       months after the end of the grant period.

Under 43 CFR § 12.63(a), a grantee may charge to the grant award only costs
resulting from obligations of the funding period. Furthermore, 43 CFR § 12.63(b)
states that a grantee must liquidate all obligations incurred under the award not
later than 90 days after the end of the funding period.

This issue arose because the Department did not have a process to ensure that it
liquidated its obligations within 90 days at the end of the grant period. As a result,
we are questioning $40,209 in ineligible costs.

Recommendations

We recommend that FWS:

    1. Resolve the ineligible questioned costs of $40,209.

    2. Ensure the Department establishes a process to liquidate all grant
       obligations within 90 days of the end of the grant period.


Department Response
The Department did not concur with the finding but provided a justification to
support the expenses.

FWS Response
FWS Regional officials acknowledge the finding and requested additional
information from the Department to be incorporated into a pending corrective
action plan.

OIG Comments
We disagreed with the Department’s justification using the criteria cited. Based
on the Department and FWS responses, additional information is needed in the
corrective action plan including:

   •   The specific action(s) taken or planned to address the recommendations.
   •   Targeted completion date.
                                                                                     6
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

B. Lack of Required Assent Legislation

According to 50 CFR § 80.3, a State may participate in the benefits of the
Wildlife and Sport Fish Restoration Acts only after it has passed legislation
assenting to the provisions of those Acts. The Virgin Islands, however, has not
assented to the Sport Fish Restoration Act. In spite of that fact, the Department
has continued to expend Sport Fish Restoration funds, including $2,653,200 from
Program grants open in FYs 2009 and 2010. Without proper assent legislation,
FWS could render the Virgin Islands ineligible to partake in the Sport Fish
Program and could withhold its apportionment of funds.

We commented on this issue twice in the past decade, first in a 2002 advisory
report (No. 2003-E-0001 (X-GR-FWS-0001-2003)) and again in a 2007 audit
report (No. R-GR-FWS-0007-2007). We are therefore repeating the original
recommendation from our advisory report (Recommendation D.1), which will be
tracked under the resolution process for that report.

Repeat Recommendation

We recommend that FWS require the Department to enact assent legislation
to ensure continued participation in the Sport Fish Restoration Program.


Department Response
The Department did not concur with the finding, but submitted documentation for
the Legislature to revise the assent legislation.

FWS Response
FWS Regional officials concurred with the finding and the Department’s
proposed corrective actions.

OIG Comments
The implementation of this recommendation will be tracked under the prior audit
reports. Accordingly, FWS should send documentation regarding the
implementation of this recommendation to the U.S. Department of the Interior,
Office of the Assistant Secretary for Policy, Management, and Budget.

C. Unapproved Advance Drawdowns

Under the Program, The Department must obtain approval from FWS for an
advance. The Department draws down Program grant funds after it issues a
purchase order, which obligates grant funds for purchase of materials or services.
For example, on June 21, 2010, the Department issued a purchase order and drew
                                                                                  7
down $55,685 from FWS under Grant FW-18-7, for operations and maintenance.
The Department did not begin to expend these funds until July 14, 2010, however,
when it made the first payment under a contract to replace fencing at its Red
Hook offices. The final payment for this work was made on December 20, 2010,
6 months after the initial drawdown. The Department did not obtain prior
approval from FWS for this advance.

According to United States Code (U.S.C.), 16 U.S.C. § 669f(a) and 16 U.S.C. §
777f(a), payments under the Program are to be made after projects are completed.
Payments may also be made in advance or as projects progress, but only at the
discretion of the U.S. Department of the Interior.

This issue occurred because the Department did not follow the procedures to pay
expenses with its own funds before submitting drawdown requests. As a result,
the Department risks drawing down more Federal funds than it needs and using
them for unallowable purposes.

Recommendations

We recommend that FWS:

   1. Ensure the Department follows procedures to pay Program expenses
      with its own funds before requesting Federal reimbursement.

   2. Require the Department to submit paid receipts to FWS before drawing
      down Federal funds.


Department Response
The Department did not concur with the finding and interpreted that a drawdown
can be made when the cost is incurred, not paid.

FWS Response
FWS Regional officials acknowledge the finding and requested additional
information from the Department to be incorporated into a pending corrective
action plan.

OIG Comments
We disagreed with the Department’s interpretation on when a drawdown can be
made. Based on the United State Code, drawdowns are to be made only after
projects are completed or in advance with approval from FWS. Based on the
Department and FWS responses, additional information is needed in the
corrective action plan including:

   •   The specific action(s) taken or planned to address the recommendations.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
                                                                                  8
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

D. Inadequate Equipment Management

Federal regulations found in 43 CFR § 12.72(b) require each State to use, manage,
and dispose of equipment acquired under a grant in accordance with its own laws
and procedures. The Department’s “Standard Operating Procedures” states that
upon receipt of property, items are assigned a property number, which is recorded
in the Department’s inventory records. These records must include detailed
information on each piece of equipment, such as relevant dates and amounts,
descriptions, and the division and program using the item.

The Department, however, did not maintain a comprehensive inventory of its
equipment. Although staff in St. Croix and Red Hook kept an inventory of their
offices’ equipment, their lists did not contain all the required information.
Therefore, to test controls over equipment, we obtained a list of equipment
procured with purchase orders in FYs 2009 and 2010. We selected a sample of 34
items and found that six items were not accurately recorded and one item was not
being used for its intended purpose, as follows:

   •   The Department incorrectly issued a property tag for a contractor’s work
       related to photographing wildlife, which is a service rather than an
       equipment item.
   •   Property tag numbers were not readable or were not correctly affixed to
       five items, including a laptop computer, a car, a hanging scale, a desk, and
       an all-terrain vehicle.
   •   One vehicle, purchased for Grant FW-15-18 (Coordination of Federal Aid
       Activities), was not being used solely for the purposes of that grant.

Because the Department did not follow its own procedures, it could not properly
identify and manage all of its equipment purchased with Program funds.
Therefore, it cannot ensure that equipment is being used only for intended
purposes. These issues also increase the risk of equipment being lost or stolen.

Recommendation

We recommend that FWS ensure the Department follows its “Standard
Operating Procedures” to accurately identify and record all equipment.


Department Response
The Department did not concur with the finding but submitted an updated
inventory listing.




                                                                                   9
FWS Response
FWS Regional officials acknowledge the finding and requested additional
information from the Department to be incorporated into a pending corrective
action plan.

OIG Comments
We were unable to determine whether the inventory listing accurately identifies
and records all equipment. Based on the Department and FWS responses,
additional information is needed in the corrective action plan including:

   •   The specific action(s) taken or planned to address the recommendation.
   •   Targeted completion date.
   •   Titles of officials responsible for implementing the actions taken or
       planned.
   •   Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.




                                                                                  10
Appendix 1
                Government of the Virgin Islands
          Department of Planning and Natural Resources
             Financial Summary of Review Coverage
           October 1, 2008, Through September 30, 2010

                                                 Questioned Costs
                                                  (Federal Share)
                 Grant         Claimed
Grant Number    Amount          Costs        Ineligible   Unsupported
F-7-22              $52,261        $28,997
F-8-18               51,613         28,009
F-8-19               33,542         19,115
F-9-14              155,615         37,328
F-9-15              431,408         77,011
F-10-16             171,819        124,755
F-16-REO-1          462,061        374,932
F-16-REO-2          413,505        122,882      $15,559
F-16-REO-3          507,103        222,694                      $2,081
F-17-D-1            705,000          2,191
F-19-MTBHM-1         97,093         28,569
FW-14-17            332,374        310,742
FW-14-18            332,342        245,853
FW-15-17            230,560         88,317
FW-15-18            193,290        130,499
FW-18-6             461,650        461,650       24,650         20,728
FW-18-7             368,900        349,656
W-17-6               69,575         53,395                       2,600
W-17-7               55,813         18,616
W-20-R-1             35,109         32,695
W-23-HM-1           146,653        130,775
W-23-HM-2           122,550         87,635
W-23-HM-3           110,272         36,713
W-24-R-1             33,803         29,396
W-24-R-2             30,717         15,044
W-25-P-1            $18,213        $12,599
TOTAL           $5,622,841     $3,070,068      $40,209        $25,409




                                                                    11
Appendix 2

            Government of the Virgin Islands
      Department of Planning and Natural Resources
                      Sites Visited


               Department Headquarters
             Cyril E. King Airport, St. Thomas

           Division of Fish and Wildlife Offices
                  Frederiksted, St. Croix
                  Red Hook, St. Thomas

                  Boat Access Facilities
                     Altona Lagoon
                      Frederiksted
                      Gallows Bay
                        Hull Bay
                       Krum Bay




                                                     12
Appendix 3
                     Government of the Virgin Islands
              Department of Planning and Natural Resources
              Status of Audit Findings and Recommendations

Recommendations                 Status                 Action Required
A.1.1, A.1.2, A.2.1,   FWS management              Based on the FWS
A.2.2, C.1, C.2, and   acknowledges the            response, additional
D                      recommendations, but        information is needed in
                       additional information is   the corrective action plan,
                       needed as outlined in the   as listed in the Findings
                       “Action Required”           and Recommendations
                       column.                     section under OIG
                                                   Comments. We will refer
                                                   the recommendations, if
                                                   not resolved and/or
                                                   implemented at the end of
                                                   90 days (after February 1,
                                                   2012), to the Assistant
                                                   Secretary for Policy,
                                                   Management and Budget
                                                   (PMB) for resolution
                                                   and/or tracking of
                                                   implementation.
Repeat                 Repeat recommendation       Provide documentation
Recommendation B       from our prior report       regarding the
                       (No. 2003-E-0001 (X-        implementation of this
                       GR-FWS-0001-2003),          recommendation to PMB.
                       Recommendation D.1).
                       PMB considered this
                       recommendation
                       resolved not
                       implemented.




                                                                                 13
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
